OIG Audit Report 98-15
Drug Enforcement Administration Annual Financial Statement
Fiscal Year 1997
Report No. 98-15
June 1998
Office of the Inspector General
COMMENTARY AND SUMMARY
The Drug Enforcement Administration (DEA) was created on July 1, 1973, as the result of an effort to consolidate all federal anti-drug forces under a single unified command within the Department of Justice.  It is headed by an Administrator and consists of 20 Domestic Divisions and 74 Foreign Offices in 53 countries throughout the world.
The DEA's mission is to combat drug trafficking.  It is responsible for the development of federal drug enforcement strategy, programs, planning, and evaluation.  It provides the skeletal structure for drug law enforcement worldwide and a point of reference for efforts against all aspects of the illegal drug problem, including investigations, drug intelligence, chemical control, diversion control and regulation, and crop and laboratory eradication.  In FY 1997 the DEA had an authorized budget of $1.22 billion and it employed over 7,400 persons.
This audit report contains the Annual Financial Statement of the DEA for the fiscal year ended September 30, 1997.  The audit was performed by KPMG Peat Marwick LLP and resulted in a disclaimer of opinion on the Statement of Financial Position and Statement of Operations and Changes in Net Position.  The disclaimer of opinion was a result of the following:
The DEA was unable to provide information regarding an on-going investigation of an alleged irregularity involving DEA employees due to the prosecutorial/legal status;
Weaknesses in the DEA's property accounting system that did not accurately and completely account for property and equipment;
The DEA did not have an adequate financial system to report the results of trafficker directed funds activities which occurred during the year ended September 30, 1997;
The DEA was unable to report FY 1997 seized asset information required by Federal Accounting Standards; and,
The DEA was unable to provide documentation supporting balances reported in the financial statements and footnotes related to undelivered orders, operating expenses, governmental advances and prepayments, commitments and contingencies, and property and equipment.
The DEA also received a disclaimer of opinion on its Statement of Financial Position for FY 1996 (OIG Report 97-31A).  The auditors were not contracted to audit the Statement of Operations and Changes in Net Position in that first-year audit.  A summary of the findings noted in the FY 1996 audit and their status can be found in the accompanying report.